                       United States Attorney William J. Hochul, Jr.
                              Western District of New York


 FOR IMMEDIATE RELEASE                              CONTACT:         Barbara Burns
 September 16, 2011                                 PHONE:           ( 716) 843-5700
 www.usdoj.gov/usao/nyw                             FAX:            ( 716) 551-3051



                     WOMAN SENTENCED ON FRAUD CHARGE


      Buffalo, N.Y.-- U.S. Attorney William J. Hochul, Jr. announced today that Jacquelyn
Wilson, 39, of Amherst, New York, who was convicted of providing false information to the
U.S. Department of Education when applying for students loans, was sentenced today to
two years probation and ordered to pay restitution in the amount of $61, 670.00 by United
States Magistrate Judge Hugh B. Scott.


      Assistant U.S. Attorney Trini E. Ross, who handled the case, stated that between
1996 and 2007, the defendant used her spouse’s social security number to obtain federal
financial education loans.


      The sentencing is the culmination of an investigation on the part of Special Agents of
the Department of Education, Office of Inspector General and the Social Security
Administration Office of Inspector General, under the direction of Special Agent in Charge
Edward J. Ryan.




                                         ####
